Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




         FLORIDA PAID HOSPITALS
           FOR SOME INPATIENT
           HOSPITAL SERVICES
          THAT MEDICARE PAID


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                     Lori S. Pilcher
                                               Regional Inspector General

                                                        May 2014
                                                      A-04-12-06158
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY


 Florida Medicaid overpaid hospitals $281,620 for some of the same inpatient hospital
 services that Medicare had already paid.

WHY WE DID THIS REVIEW

Medicaid provides health coverage to 8.3 million “dually eligible” low-income seniors and
people with disabilities, who are enrolled in both Medicaid and Medicare. However, Medicaid is
the payer of last resort and should not pay for medical costs when there is another responsible
entity (or program), including Medicare. The Office of Inspector General has consistently
identified Medicaid overpayment issues. In this audit, we focused on Medicaid overpayments
when Medicare and Medicaid both pay for the same services. We are conducting this audit in
multiple States.

The objective of our audit was to determine whether the Florida Agency for Health Care
Administration (State agency) overpaid Medicaid inpatient claims to hospitals that received
Medicare payments for the same services.

BACKGROUND

Federal and State Governments jointly fund the Medicaid program. The Medicaid program is
intended to be the payer of last resort; that is, all third party insurance carriers, including
Medicare, must meet their legal obligation to pay claims before the Medicaid program pays for
the care of an individual on Medicaid (section 1902(a)(25) of the Social Security Act).

Overpayments occur when the State agency inappropriately pays claims that a third party is
responsible for paying. In Florida, the State agency administers the Medicaid program.

WHAT WE FOUND

The State agency overpaid some Medicaid inpatient claims from hospitals that had received
Medicare payments for the same services. Of the 290 overpayments ($522,344 Federal share)
that we reviewed, the hospitals had refunded 143 prior to our audit. However, the hospitals had
not refunded the remaining 147. The overpayments were due to the State’s lack of system edits
to detect erroneous hospital entries in their payment system. As a result, the State agency made
Medicaid overpayments to hospitals totaling $281,620 ($186,258 Federal share).

WHAT WE RECOMMEND

We recommend that the State agency:

    •   recover $281,620 in Medicaid overpayments,

    •   refund $186,258 to the Federal Government,



Medicaid Overpaid for Some Medicare Services in Florida (A-04-12-06158)                            i
    •	 ensure system edits are in place to prevent the overpayments that occurred, and

    •	 strengthen guidance and provider education activities related to inpatient deductible
       billing.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency concurred with our third and fourth
recommendations and described corrective actions that it had taken or planned to take in regard
to these recommendations. However, the State agency only partially concurred with our first and
second recommendations because it disagreed with the improper payment amount we initially
identified in our draft report. The State agency asserted that it had recovered payments for 50
claims; however, we determined that the State agency had recovered payments for only 6 of
those claims prior to the start of our audit. Therefore, we revised the overpayment amount to
$281,620 and the Federal Share to $186,258.




Medicaid Overpaid for Some Medicare Services in Florida (A-04-12-06158)                        ii
                                                     TABLE OF CONTENTS



INTRODUCTION ........................................................................................................................ 1


           Why We Did This Review ................................................................................................ 1


           Objective ........................................................................................................................... 1


           Background ....................................................................................................................... 1

                 The Medicaid Program ......................................................................................... 1

                 Medicaid Payer of Last Resort .............................................................................. 1

                 Florida Agency for Health Care Administration .................................................. 2


           How We Conducted This Review..................................................................................... 2


FINDINGS .................................................................................................................................... 2


           Medicaid Overpayments Not Recovered .......................................................................... 3


           Why Did Overpayments Occur? ....................................................................................... 3


RECOMMENDATIONS .............................................................................................................. 3


STATE AGENCY COMMENTS AND 

 OFFICE OF INSPECTOR GENERAL RESPONSE ................................................................ 4



APPENDIXES

           A: Audit Scope and Methodology ................................................................................... 5


           B: Federal and State Requirements .................................................................................. 6


           C: State Agency Comments ............................................................................................. 7





Medicaid Overpaid for Some Medicare Services in Florida (A-04-12-06158)                                                                           iii
                                           INTRODUCTION


WHY WE DID THIS REVIEW

Medicaid provides health coverage to 8.3 million “dually eligible” low-income seniors and
people with disabilities, who are enrolled in both Medicaid and Medicare. However, Medicaid is
the payer of last resort and should not pay for medical costs when there is another responsible
entity (or program), including Medicare. The Office of Inspector General has consistently
identified Medicaid overpayment issues. In this audit, we focused on Medicaid overpayments
when Medicare and Medicaid both pay for the same services. We are conducting this audit in
multiple States.

OBJECTIVE

Our objective was to determine whether the Florida Agency for Health Care Administration
(State agency) overpaid Medicaid inpatient claims to hospitals that received Medicare payments
for the same services.

BACKGROUND

The Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

The amount that the Federal Government reimburses to State Medicaid agencies is commonly
known as Federal financial participation, or Federal share. It is a specified percentage of
Medicaid expenditures determined by the Federal medical assistance percentage, which varies
based on a State’s relative per capita income.

Medicaid Payer of Last Resort

The Medicaid program is intended to be the payer of last resort; that is, all third party insurance
carriers, including Medicare, must meet their legal obligation to pay claims before the Medicaid
program pays for the care of an individual on Medicaid (section 1902(a)(25) of the Social
Security Act (the Act)). Overpayments occur when the State agency inappropriately pays claims
that a third party is responsible for paying. When both Medicare and Medicaid coverage apply,
Medicare is the primary payer.

The State agency must recover Medicaid payments when Medicaid pays for services for an
individual who has Medicare as the primary payer. This payment constitutes an overpayment.




Medicaid Overpaid for Some Medicare Services in Florida (A-04-12-06158)                           1
Florida Agency for Health Care Administration

In Florida, the State agency administers the Medicaid program. Within the State agency, the
Medicaid Third Party Liability (TPL) Unit and the Bureau of Medicaid Program Integrity are
jointly responsible for identifying and recovering Medicaid overpayments and duplicate
payments through recoupment projects.

The TPL Unit ensures that Medicaid is the payer of last resort by identifying, managing and
recovering funds for claims paid by the State agency for which a third party was liable. The TPL
Unit monitors the performance of the TPL contractor, which provides the TPL recovery services.

The Bureau of Medicaid Program Integrity audits and investigates providers suspected of
overbilling or defrauding Florida's Medicaid program. The Bureau also recovers overpayments,
issues administrative sanctions, and refers cases of suspected fraud for criminal investigation.

HOW WE CONDUCTED THIS REVIEW

We reviewed 290 Medicaid overpayments for inpatient services that Medicare also paid, totaling
$804,129 ($522,344 Federal share), submitted by 109 hospitals in Florida for the 3-year period
from January 1, 2007, through December 31, 2009. Our audit population did not include claims
in which Medicaid paid for only the deductible, only the coinsurance, or both, for the inpatient
stay.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                               FINDINGS

The State agency overpaid some Medicaid inpatient claims from hospitals that had received
Medicare payments for the same services. Of the 290 overpayments ($522,344 Federal share)
that we reviewed, the hospitals had refunded 143 prior to our audit. However, the hospitals had
not refunded the remaining 147. The overpayments occurred because of the State agency’s lack
of system edits to detect erroneous or incorrect hospital entries in its payment system. The State
agency made its payments on the basis of data it received from the hospitals, which was not
always accurate. As a result, the State agency made Medicaid overpayments to hospitals totaling
$281,620 ($186,258 Federal share).

For details on the Federal and State requirements related to the Medicaid overpayments, see
Appendix B.




Medicaid Overpaid for Some Medicare Services in Florida (A-04-12-06158)                            2
MEDICAID OVERPAYMENTS NOT RECOVERED

The Act provides that the State should refund the Federal portion of any overpayment
(§ 1903(d)(2)(A)). An overpayment is the amount paid by a Medicaid agency to a provider that
exceeds the amount that is allowable for services furnished under the State plan (42 CFR
§ 433.304).

The State agency overpaid some Medicaid inpatient claims from hospitals that had received
Medicare payments for the same services. Of the 290 overpayments we reviewed, the hospitals
refunded 143 prior to the start of our audit. However, the hospitals had not refunded the
remaining 147 Medicaid overpayments totaling $281,620 ($186,258 Federal share). Of the 147
overpayments, the State paid hospitals:

    •	 deductible amounts that should not have been paid for 122 overpayments, totaling
       $126,009, and

    •	 for inpatient hospital stays that Medicare also paid for 25 overpayments, totaling

       $155,611. 


WHY DID OVERPAYMENTS OCCUR?

The overpayments occurred because the State agency’s payment system did not have edits in
place to detect erroneous or incorrect hospital entries. Some hospitals erroneously entered the
inpatient deductible amount into the State agency’s payment system without validating that a
Medicare deductible existed. The payment system did not detect or validate the accuracy before
payment.

Although the State agency had edits in place that detected some duplicate submissions and
verified Medicare coverage, they did not always work properly. For instance, the duplicate edit
process sometimes overrode other edit checks that could have prevented an erroneous payment
or denied a duplicate payment.

RECOMMENDATIONS

We recommend that the State agency:

    •	 recover $281,620 in Medicaid overpayments,

    •	 refund $186,258 to the Federal Government,

    •	 ensure system edits are in place to prevent the overpayments that occurred, and

    •	 strengthen guidance and provider education activities related to inpatient deductible
       billing.




Medicaid Overpaid for Some Medicare Services in Florida (A-04-12-06158)                           3
                            STATE AGENCY COMMENTS AND

                       OFFICE OF INSPECTOR GENERAL RESPONSE


In written comments on our draft report, the State agency concurred with our third and fourth
recommendations and described corrective actions that it had taken or planned to take in regard
to these recommendations. However, the State agency only partially concurred with our first and
second recommendations because it disagreed with the improper payment amount we initially
identified in our draft report. The State agency asserted that it had recovered payments for 50
claims; however, we determined that the State agency had recovered payments for only 6 of
those claims prior to the start of our audit. Therefore, we revised the overpayment amount to
$281,620 and the Federal Share to $186,258.

The State agency comments are included in their entirety as Appendix C.




Medicaid Overpaid for Some Medicare Services in Florida (A-04-12-06158)                       4
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY


SCOPE

Our review covered a population of 290 Medicaid overpayments for inpatient services that
Medicare also paid, totaling $804,129 ($522,344 Federal share), submitted by 109 hospitals in
Florida for the period from January 1, 2007, through December 31, 2009. Our audit population
did not include claims in which Medicaid paid for only the deductible, only the coinsurance, or
both, for the inpatient stay.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Instead, we limited our internal control review to the objective of our audit.

We conducted fieldwork at the State agency in Tallahassee, Florida, and at various hospitals
throughout Florida.

METHODOLOGY

To accomplish our objective, we:

    •	 reviewed applicable Federal and State requirements and the Florida State Medicaid plan,

    •   discussed the Medicaid overpayment process with State agency officials,


    •   obtained data for paid Medicaid and Medicare inpatient claims,


    •	 performed a data match of the Medicaid and Medicare inpatient claims for overpayments
       for the same beneficiary for the same date of service,

    •	 reviewed the matching 290 overpayments that had Medicare and Medicaid inpatient
       claims for the same beneficiary for the same date of service,

    •	 obtained documentation from providers and the State agency to support repayment of
       Medicaid payments,

    •	 provided State agency officials with a listing of the overpayments for validation,

    •	 calculated the overpayment amount (Federal share), and

    •	 discussed our results with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our finding and conclusions based on our audit objectives.


Medicaid Overpaid for Some Medicare Services in Florida (A-04-12-06158)                           5
                 APPENDIX B: FEDERAL AND STATE REQUIREMENTS


FEDERAL REQUIREMENTS

The State or local agency administering a State plan for medical assistance will take all
reasonable measures to ascertain the legal liability of third parties to pay for care and services
available under the plan. By law, the Medicaid program is intended to be the payer of last resort;
that is, all other available third party resources must meet their legal obligation to pay claims
before the Medicaid program pays for the care of an individual eligible for Medicaid (section
1902(a)(25) of the Act). This means that all third party insurance carriers, including Medicare,
must pay before Medicaid processes the claim.

Federal regulations (42 CFR § 433.304) define an overpayment as “... the amount paid by a
Medicaid agency to a provider which is in excess of the amount that is allowable for the services
furnished under section 1902 of the Act and which is required to be refunded under section 1903
of the Act.” In instances when Medicaid should not have paid because Medicare was the
primary payer, the State agency should recover the Medicaid payments, which are considered
overpayments.

Federal regulations, 42 CFR § 433.312(a), also require that the State must refund the Federal
share of unallowable overpayments made to Medicaid providers.

STATE REQUIREMENTS

Medicaid is the payer of last resort for medical necessary good and services furnished to
Medicaid recipients. All other sources of payment for medical care are primary when Medicaid
pays for medical assistance. If a third party is discovered or becomes available after Medicaid
has provided services, then Medicaid is to be repaid in full and before any other person, program,
or entity (Florida Statute 409.910 (1)).

In addition, Florida Statute 409.910 (4) states that after the agency has provided medical
assistance under the Medicaid program, it shall seek recovery of reimbursement from third-party
benefits to the limit of legal liability and for the full amount of third-party benefits, but not in
excess of the amount of medical assistance paid by Medicaid.

The State agency’s Provider General Handbook requires providers to bill the primary insurer
prior to billing Medicaid, if a recipient has other insurance coverage through a third party, such
as Medicare. Medicaid is the payer of last resort.




Medicaid Overpaid for Some Medicare Services in Florida (A-04-12-06158)                              6
                          APPENDIX C: STATE AGENCY COMMENTS




                       IT                                                                  ELIZABETH DUDEK
                GOVERNOR                                                                      SECRETARY


                                                         April 1, 2014



             Ms. Lori S. Pilcher
             Regional Inspector General for Audit Services
             Department of Health & Human Services
             Office of Inspector General
             Office of Audit Services, Region IV
             61 Forsyth Street, SW, Suite 3T41
             Atlanta, GA 30303

             Dear Ms. Pilcher:

             Thank you for your letter of March 4, 2014, requesting us to provide comments on the draft
             report number A-04-12-06158 entitled Florida Paid Hospitals for Some Inpatient Hospital
             Services That Medicare Paid. In accordance with your request, we have emailed you our
             response.

             If you have any questions regard ing our response, please contact Mary Beth Sheffield, Audit
             Administrator, at 850-412-3978.




             ED/szg
             Enclosure




              2727 Mahan Drive • Mail Stop #1                                           Visit AHCA online at
              Tallahassee. FL 32308                                                    AHCA .MyFiorida . com




Medicaid Overpaid for Some Medicare Services in Florida (A-04-12-06158)                                        7
                                         for Health Care Administration
             Florida Paid Hospitals For Some Inpatient Hospital Services That Medicare Paid
            Response to HHS/OIG Draft Report Number A-04-12-06158 dated February 2014

            Summary of Findings
            The state agency overpaid some Medicaid inpat ient claims from hospitals that had received Medicare
            payments for the same services. Of the 290 overpayments ($522,344 Federal share) that we reviewed, t he
            hospitals had refunded 137 prior to our audit However, the hospita ls had not refunded the remaining 153.
            The overpayments occurred because of the state agency's lack of system edits to detect erroneous or
            incorrect hospital entries in its payment system. The State agency made its payments on the basis of data
            it received from the hospitals, w hich was not always accurate. As a result, the state agency made Medicaid
            overpayments to hospitals totaling $344,460 ($224,188 Federa l share).


            Recommend ation#1
            Recover $344,460 in Medicaid overpayments.

            Agency Response and Co"ective Action Plan:
            The Agency partially concurs with this recommendation pending the results of further research. The
            Agency has recovered the overpayments associated with 50 claims totaling $113,283 of the original153
            claims that totaled $344,460 identified in the audit. These recoveries occurred between July 2009 and
            October 2013. The Agency continues to research the remaining 103 claims, totaling $231 , 177, and will
            initiate recovery efforts for those claims determined to be paid in error. Partial concurrence was noted
            because Florida does not have access to the Medicare payment system. nor does it have the specific claim
            data directly from Medicare. The overpayment determination in the instant audit was supported by a
            spreadsheet with this derivative information, wllich could be subject to errors. Florida does not have a way
            to verify these instances of overpayment without the information from Medicare.


            Recommend ation#2
            Refund $224,188 to the Federal Government,

            Agency Response and Co"ective Action Plan:
            Tile Agency partially concurs with this recommendation pending the results of further research. As noted in
            the Agency's response to Recommendation #1 , the Agency has recovered file overpayments associated
            with 50 claims totaling $113,283. The Federal share of this recovery activity was returned to the Federal
            government through the standard FL Medicaid Management System (MMIS) recoupment process Tile
            Agency will continue to research the remaining 103 claims and refund the Federal share for any claims
            found to be paid in error. Partial concurrence was noted because Florida does not have access to the
            Medicare payment system, nor does it have the specific claim data directly from Medicare. The
            overpayment determination in the instant audit was supported by a spreadsheet with this derivative
            information, which could be subject to errors. Florida does not have a way to verify these instances of
            overpayment without the information from Medicare.


            Recommend ation#3
            Ensure system edits are in place to prevent the overpayments that occurred.

            Agency Response and Co"ective Action Plan:
            Tile Agency concurs with this recommendation and this has been completed. Medicaid Contract
            Management identified an Inpatient Crossover claim issue in the FL MMIS in January 2012, and
            implemented an edit correction February 2012. Change Order# 30480 (Inpatient Xaver Claims Issue)
            identified the issue that was not consistently populating/capturing the Medicare information on the claim.
            System edits are now in place to correct that particular defect and prevent the related overpayments that
            occurred.




Medicaid Overpaid for Some Medicare Services in Florida (A-04-12-06158)                                                    8
                                       cy for Health Care Administration
             Florida Paid Hospitals For Some Inpatient Hospital Services That Medicare Paid
            Response to HHS/OIG Draft Report Number A-04-12-06158 dated February 2014

            Recommend ation#4
            strengthen guidance and provider education activities related to inpatient deductible billing.

            Agenc y Response and Cotrective Action Plan :
            The Agency concurs with this recommendation. The Agency already communicates Medicaid policy to the
            provider community through various methods and materials including Provider Coverage and Limitation
            Handbooks, fee schedules, provider alerts, and provider outreach activities. These materials are available
            to Medicaid providers through the public web portal. The Agency currently maintains area offices to assist
            the provider community with claims billing questions, and the Agency's fiscal agent employs provider field
            representatives to visit, train, and further assist Medicaid providers. Additionally, the Agency maintains an
            email address specific to hospitals allowing them to email questions directly to Agency staff.




Medicaid Overpaid for Some Medicare Services in Florida (A-04-12-06158)                                                     9
